  n p r
                                                                                         Exhibit E


 March 14, 2014



 Mr. William J. Richardson III
Deputy Inspector General
Corporation for Public Broadcasting
401 Ninth Street, NW
Washington, DC 20004-2129

Re: Audit of Selected CPB Grants Awarded to National Public Radio, Inc., Washington, DC,
   for the Period April 28, 2008 - September 30, 2013, Draft Audit Report No. APR1305-
    xxxx

Dear Mr. Richardson:


Thank you for your February 14, 2014, letter conveying the draft report of the results of the
audit of select Corporation for Public Broadcasting (CPB) grants awarded to National Public
Radio, Inc. (NPR).

Pursuant to your request, I am pleased to provide NPR's response to the findings and
recommendations outlined in Draft Audit Report No. APR1305-XXXX.

Regarding the "PRSS Costs" finding, NPR appreciates the recommendation from CPB's
Office of Inspector General (OIG) that NPR use the erroneous $99,760 duplicate cost under
grant number 11789 to apply to future project costs. NPR will correct the $99,760
overcharge during the closing of its quarter ending March 31, 2014, by increasing the
unspent balance of the contract through a journal entry. Prior to preparing and submitting
the final quarter-end reports to CPB, NPR's Accounting team will print general ledgers
showing expenses before and after the posting of the correcting journal entry, and will print
a copy of the correcting journal entry. The general ledgers and journal entry will be provided
to CPB so that CPB may perform a cross-walk of the change and validate that the credit was
properly applied.

Regarding the "Act Compliance" finding, NPR is fully committed to complying with the open
financial records requirements of the Communications Act as required by the audited grant
agreements. NPR will make the financial reports it submitted to CPB available to the public.
We appreciate the reminder from the OIG and the opportunity to clarify our compliance with
these requirements. Fortunately, we are not aware of any denial of access to such reporting,
but NPR will remind relevant personnel of NPR's compliance obligation. In addition, and for
the sake of clarity, NPR will provide public access to the CPB financial reporting in the
following fashion consistent with CPB policy: at all NPR public access points, including
NPR's headquarters location and its telephone and electronic points of contact, requests to
provide a physical or electronic copy of the requested information will be addressed in a
timely fashion. Copies of the requested information may be subject to reasonable redactions
to protect against disclosure of confidential or otherwise sensitive information.




   NPR.ORG                            mi NORTH CAPITOL ST NE            P 202.513.2000
                                      WASHINGTON, DC 20002              F 202.513.3329
